APPENDIX A
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1880
TODD C. BANK,

Appellant,
v.
AL JOHNSON’S SWEDISH
RESTAURANT & BUTIK, INC.,

Appellee.
Appeal from the United States Patent
and Trademark Office, Trademark
Trial and Appeal Board in No. 92069777.
Decided: December 9, 2019
TODD C. BANK, Kew Gardens, NY, pro se.
KATRINA HULL, Markery Law LLC,
Gaithersburg, MD, for appellee. Also represented by
JACQUELINE PATT.

1a

Before WALLACH, CLEVENGER, and HUGHES,
Circuit Judges.
WALLACH, Circuit Judge.
Appellant Todd C. Bank appeals the opinion of the
U.S. Patent and Trademark Office’s Trademark Trial
and Appeal Board (“TTAB”) granting Appellee Al
Johnson’s Swedish Restaurant & Butik, Inc.’s
(“Swedish Restaurant”) motion to dismiss Mr. Bank’s
petition to cancel registration of the Swedish
Restaurant’s trade dress that “consists of goats on [a]
grass roof,”1 bearing the Registration Number
2,007,624 (“Goats on the Roof Registration”), under
Federal Rule of Civil Procedure 12(b)(6). Bank v. Al
Johnson’s Swedish Restaurant & Butik, Inc., No.
92069777 (T.T.A.B. Mar. 27, 2019) (A.A. 2–16);2 see
A.A. 14–16 (Petition to Cancel).3 For the limited
purpose of determining whether Mr. Bank has

1

“[T]rade dress constitutes a ‘symbol’ or ‘device’ for purposes of
the” Lanham Act that may be registered as a trademark.” WalMart Stores, Inc. v. Samara Bros., Inc., 529 U.S. 205, 209 (2000);
see 15 U.S.C. § 1127 (2012).
2

“A.A.” refers to the Appellant’s Appendix attached to its
Principal Brief.
3

Following the issuance of its opinion on March 27, 2019, the
TTAB granted Mr. Bank twenty days to amend his Petition to
Cancel. A.A. 1 (Order Denying the Petition to Cancel). Because
Mr. Bank did not amend within the allotted twenty days, on May
2, 2019, the TTAB denied the Petition to Cancel with prejudice.
A.A. 1.

2a

standing to bring his claim, we have jurisdiction
pursuant to 28 U.S.C. § 1295(a)(4)(A) (2012).
DISCUSSION
I. Standard of Review and Legal Standard
“Standing is a question of law that this court
reviews de novo.” Coach Servs., Inc. v. Triumph
Learning LLC, 668 F.3d 1356, 1376 (Fed. Cir. 2012).
While a plaintiff must show a “case or controversy”
between parties to establish standing before a federal
court, “[t]he ‘case’ and ‘controversy’ restrictions do not
. . . apply to matters before [an] administrative
agenc[y,]” such as the TTAB. Id. (citing Ritchie v.
Simpson, 170 F.3d 1092, 1095 (Fed. Cir. 1999)).
Instead, standing before an administrative agency is
conferred by statute. Here, “[a] petition to cancel a
registration of a mark” may be filed “by any person
who believes that he [or she] is or will be damaged . .
. by the registration of a mark[.]” 15 U.S.C. § 1064.
“[C]ancellation is most often premised on the grounds
listed in [15 U.S.C. § 1052.]” Young v. AGB Corp., 152
F.3d 1377, 1380 (Fed. Cir. 1998). “The party seeking
cancellation must prove two elements: (1) that it has
standing; and (2) that there are valid grounds for
canceling the registration.” Cunningham v. Laser Golf
Corp., 222 F.3d 943, 945 (Fed. Cir. 2000) (citing 15
U.S.C. § 1064).
To successfully establish standing in a trademark
opposition prosecution, the opposer must plead and
prove facts showing that he or she has “a real interest
3a

in the proceedings and [has] a reasonable basis for his
[or her] belief of damage.” Ritchie, 170 F.3d at 1095
(internal quotation marks omitted). Typically, standing
is not a demanding requirement. Regarding the real
interest requirement, “an opposer must have a
legitimate personal interest in the opposition.” Coach
Servs., 668 F.3d at 1376 (internal quotation marks and
citation omitted). Regarding the second inquiry, an
“opposer’s belief of damage must have a reasonable
basis in fact.” Id. (internal quotation marks and
citation omitted). “[T]here is no requirement that
damage be proved in order to establish standing[.]”
Int’l Order of Job’s Daughters v. Lindeburg & Co., 727
F.2d 1087, 1092 (Fed. Cir. 1984).
II. Mr. Bank Lacks Standing to Petition to Cancel a
Registration Because He Failed to Plead a Real
Interest and Reasonable Basis for His Belief of
Damage
The TTAB concluded that Mr. Bank lacked
standing to bring the appeal and granted the Swedish
Restaurant’s Motion to Dismiss. A.A. 8. Specifically,
the TTAB explained that, as “the only grounds for
cancellation is the claim of functionality . . . [Mr. Bank]
must adequately plead his standing to assert a claim
of functionality.” A.A. 7 (emphasis omitted).4 The

4

Under the Lanham Act, “[n]o trademark by which the goods of
the applicant may be distinguished from the goods of others shall
be refused registration on the principal register on account of its
nature unless it . . . comprises any matter that, as a whole, is
functional.” 15 U.S.C. § 1052(e)(5) (emphasis added). Moreover,

4a

TTAB determined that Mr. Bank did not sufficiently
allege standing for a number of reasons. First, the
TTAB stated that Mr. Bank failed to “plead[] that he
has a present or prospective right or interest in [the
Swedish Restaurant’s] involved mark or any other
facts sufficient to allege his standing.” A.A. 8. Second,
it explained that Mr. Bank’s “pleading of standing is
vague and does not relate specifically to the involved
service mark.” A.A. 8. Finally, the TTAB concluded
that the petition “d[id] not allege that [Mr. Bank] ha[d]
a reasonable belief of harm.” A.A. 8. Mr. Bank
contends that the TTAB incorrectly interpreted the
standing requirements for a petition to cancel a
registration by conflating the standing and merits
requirements, Appellant’s Br. 4, and by incorrectly
finding standing limited to competitors of a mark
holder, id. at 9. We disagree with Mr. Bank.
Mr. Bank failed to plead “a real interest in the

a petition to cancel registration is permitted on the grounds of
functionality. Id. § 1064(3) (permitting petitions to cancel “[a]t
any time if the registered mark . . . is functional”). To determine
functionality, the following factors are reviewed:
(1) the existence of a utility patent disclosing the utilitarian
advantages of the design; (2) advertising materials in which the
originator of the design touts the design’s utilitarian advantages;
(3) the availability to competitors of functionally equivalent
designs; and (4) facts indicating that the design results in a
comparatively simple or cheap method of manufacturing the
product.

Valu Eng’g, Inc. v. Rexnord Corp., 278 F.3d 1268, 1274 (Fed. Cir.
2002).

5a

proceedings” and “a reasonable basis” for his belief of
damage. Ritchie, 170 F.3d at 1095 (internal quotation
marks and citation omitted). Mr. Bank sought to cancel
the Goats on the Roof Registration as functional,
alleging that the trade dress “is demeaning to” goats,
which, in turn, “is offensive to [Mr.] Bank and
denigrates the value he [and others] place[] on the
respect, dignity, and worth of animals.” A.A. 15. As an
initial matter, the sole standing argument that Mr.
Bank raised before the TTAB, A.A. 6–8, and recites on
appeal, Appellant’s Br. 9, is that the Swedish
Restaurant’s trade dress was disparaging to himself as
it “is demeaning to” goats, A.A. 15. Yet as Mr. Bank
conceded before the TTAB, the Supreme Court’s
decision in Matal v. Tam, 137 S. Ct. 1744, 1764 (2017),
foreclosed his argument, as it held unconstitutional the
prohibition on the registration of disparaging marks
under the Lanham Act. A.A. 31–32 (explaining that,
following the issuance of Tam, Mr. Bank
“acknowledge[d] that disparagement [wa]s no longer a
cognizable claim under the [Lanham] Act”). In Tam,
the Court held as unconstitutional 15 U.S.C. § 1052(a)
of the Lanham Act, concluding that its prohibition on
disparaging marks was invalid under the First
Amendment protection of speech. See Tam, 137 S. Ct.
at 1765. To the extent that Mr. Bank relies upon
disparagement either as the grounds for his petition or,
as discussed below, to establish his standing, the
argument is without merit after Tam.
In any event, Mr. Bank provided no grounds for
standing. First, Mr. Bank failed to plead a real interest
in the cancellation proceedings. See Ritchie, 170 F.3d
6a

at 1095. To make such a pleading, an “opposer must
have a direct and personal stake in the outcome of the
opposition.” Id.; see Empresa Cubana Del Tabaco v.
Gen. Cigar Co., 753 F.3d 1270, 1275 (Fed. Cir. 2014)
(explaining that a real interest may be shown by a
“legitimate commercial interest,” such as a rejection of
a competitor’s proposed mark). Mr. Bank failed to
provide any reason other than to allege that the Goats
on the Roof Registration is “demeaning to goats” and
that the “respect, dignity, and worth of animals” were
affected by that alleged demeaning. See generally A.A.
15. For the reasons discussed above, the
disparagement clause of the Lanham Act is stricken as
unconstitutional. See Tam,137 S. Ct. at 1765; see also
Iancu v. Brunetti, 139 S. Ct. 2294, 2299 (2019)
(holding the Lanham Act’s bar on the registration of
“immoral” or “scandalous” trademarks in violation of
the First Amendment). Mr. Bank provided no other
basis to suggest he maintained a direct and personal
stake in the outcome and so we conclude that Mr. Bank
failed to plead to a real interest.
Second, Mr. Bank failed to plead “a reasonable
basis for his belief of damage.” Ritchie, 170 F.3d at
1095. While Mr. Bank asserted that the trade dress “is
offensive to numerous persons,” including himself,
because it was demeaning to goats, he failed to
articulate how this reason survives Tam. See generally
Appellant’s Br. 3–10. While Mr. Bank is not required
to prove his case at the pleading stage, he must provide
allegations sufficient to show his assertion of damage.
See Ritchie, 170 F.3d at 1098 (explaining that “[f]or
standing purposes, the facts asserted by an opposer
7a

need not prove his case on the merits,” but “the
reasonableness of an opposer’s basis for his belief of
damage” must be shown). Mr. Bank did not do so here.
Accordingly, the TTAB properly determined that Mr.
Bank lacked standing.
On appeal, Mr. Bank raises several
counterarguments, all of which are unavailing. First,
Mr. Bank contends that the TTAB erred in granting
the Swedish Restaurant’s Motion to Dismiss by
“misunderstanding [the] basic standing doctrine” with
the merits of his claim when the TTAB stated that “an
individual’s personal offense to a mark is [not]
sufficient to plead standing to assert a claim of
functionality.” Appellant’s Br. 4 (quoting A.A. 7)
(emphasis altered). The TTAB’s opinion itself belies
such an argument. The TTAB first analyzed standing
as a threshold matter and concluded that it was not
alleged in the petition. A.A. 8. In doing so, the TTAB
explained that Mr. Bank had conceded that Tam
prevented the use of disparagement as a ground for his
opposition petition. A.A. 6–7. The TTAB subsequently
addressed Mr. Bank’s claim of functionality and
determined the pleadings also provided no standing.
A.A. 7. The TTAB did not conflate the two
requirements and instead reviewed Mr. Bank’s petition
in total to see if standing was sufficiently alleged. See
Ritchie, 170 F.3d at 1095.
Second, Mr. Bank argues that the TTAB
improperly limited standing to a mark holder’s
competitors. Appellant’s Br. 7. He is incorrect. Instead,
the TTAB identified a variety of grounds which would
8a

provide standing. A.A. 5 (“In order to plead standing to
challenge a registration based on a claim that the
mark is functional, a plaintiff must plead that it is a
competitor, that it is engaged in the manufacture or
sale of the same or related goods, or that it otherwise

has a current or prospective right or interest in using
the mark.” (emphasis added)). Moreover, the TTAB
relied upon Ritchie, which itself provides for the
proposition that standing is not limited to competitors.
See generally A.A. 4–8. See Ritchie, 170 F.3d at
1096–97 (“In no case has this court ever held that one
must have a specific commercial interest, not shared by
the general public, in order to have standing as an
opposer.”).
Finally, Mr. Bank contests the TTAB’s alleged
conclusion that “the mark in question [must be] part of
a class of marks to which the petitioner might also
object.” Appellant’s Br. 9 (capitalization altered); see
A.A. 8 (asserting that Mr. Bank’s “pleading of standing
is vague and does not relate specifically to the involved
service mark”). To the extent that Mr. Bank is
challenging the statement as one which creates a “class
of marks” requirement, such an interpretation strains
the meaning of the cited portion of the TTAB’s opinion.
Instead, when read in its entirety, the cited portion
does not create a new requirement for a “class of
marks” and is consistent with the remainder of the
opinion in establishing Mr. Bank’s failure to
sufficiently allege his standing. See generally A.A. 7.
Swedish Restaurant moves for its costs and
attorney fees under Federal Rule of Appellate
9a

Procedure 38. See Fed. R. App. P. 38 (“If a court of
appeals determines that an appeal is frivolous, it may,
after a separately filed motion or notice from the court
and reasonable opportunity to respond, award just
damages and single or double costs to the appellee.”).
Swedish Restaurant explains that because Mr. Bank
petitioned the TTAB three times on this matter, all of
which were dismissed for lack of standing, and
appealed the final decision to this court, where the
case was “frivolous as filed and frivolous as argued[,]”
damages are warranted. Appellee’s Mot. for Sanctions
6 (citing State Indus., Inc. v. Mor-Flo Indus., Inc., 948
F.2d 1573, 1578 (Fed. Cir. 1991)). Mr. Bank responded
with his own motion for sanctions, rebutting assertions
made in Swedish Restaurant’s motion and seeking
excessive costs under 28 U.S.C. § 1927, which permits
a court to order a party “who so multiplies the
proceedings in any case unreasonably and vexatiously”
to pay attorney fees. See generally Appellant’s Mot. for
Sanctions. See also 28 U.S.C. § 1927. We conclude that
this appeal and Mr. Bank’s motion for sanctions are
frivolous. Mr. Bank filed multiple petitions with the
TTAB regarding the Goats on the Roof Registration, all
of which were dismissed for, inter alia, standing. Mr.
Bank was afforded the opportunity to revise his
petition and remedy the standing defect, which he did
not do. Despite the fact that Mr. Bank was informed by
the TTAB that his disparagement claim was based on
an unconstitutional and stricken section of the
Lanham Act, he raises it again before this court. Based
on these facts and our analysis, Mr. Bank’s appeal is
frivolous. See Finch v. Hughes Aircraft Co., 926 F.2d
1574, 1583 (Fed. Cir. 1991) (concluding that the
10a

appellant’s “decision to file this appeal can only be seen
as a frivolous waste of the resources of this court and
of the time and money of his hapless opponent” where
there were multiple grounds to affirm the underlying
opinion, each of which “would be sufficient to require
affirmance”). Even though Mr. Bank appears pro se
before us, he is an attorney and bears the
commensurate obligations. Id. at 1583 (concluding
that, even when an attorney appears pro se, he or she
is “chargeable with knowledge of . . . our rules”).
Accordingly, we grant Swedish Restaurant’s motion for
costs and attorney fees, including the costs and fees
incurred in relation to the parties’ sanctions motions,
and deny Mr. Bank’s motion for sanctions.
CONCLUSION
DISMISSED
COSTS
Costs and attorney fees to Swedish Restaurant.

11a

APPENDIX B
THIS ORDER IS NOT A
PRECEDENT OF THE TTAB
UNITED STATES PATENT AND TRADEMARK
OFFICE Trademark Trial and Appeal Board
P.O. Box 1451
Alexandria, VA 22313-1451
General Contact Number: 571-272-8500
General Email: TTABInfo@uspto.gov
mbm
March 27, 2019
Cancellation No. 92069777

Todd C. Bank
v.
Al Johnson’s Swedish
Restaurant & Butiks, Inc.
By the Trademark Trial and Appeal Board:
This proceeding now comes before the Board for
consideration of the motion (filed November 28, 2018)
of Al Johnson’s Swedish Restaurant and Butiks, Inc.
(“Respondent”) to dismiss the petition to cancel of Todd
C. Bank (“Petitioner”) for failure to state a claim upon
12a

which relief may be granted under Fed. R. Civ. P.
12(b)(6). Petitioner filed a response to the motion to
dismiss on November 30, 2018.
I. Background
Respondent is the owner of Registration No.
2007624, for the mark displayed below, for “Restaurant
services” in International Class 42:1
[display of mark]
The description of the involved mark is as follows:
“The mark consists of goats on a roof of grass. The
dotted lines in the drawing are intended to indicate the
location of the mark and are not a feature of the mark.”
On October 12, 2018, Petitioner filed a petition to
cancel Respondent’s involved registration on the
ground that the mark is functional under Section
2(e)(5) of the Trademark Act, 15 U.S.C. § 1052(e)(5).2
In lieu of filing an answer to the petition to cancel,
Respondent filed a motion to dismiss. Respondent
contends that Petitioner has failed to adequately plead
1

Registration No. 2007624, issued October 15, 1996, alleging
June 1, 1973 as both the date of first use and the date of first use
in commerce. Section 8 and 9 declaration accepted January 19,
2017.
2

In his response to the motion to dismiss, Petitioner acknowledges that functionality is the only asserted ground for
cancellation in the petition to cancel.

13a

his standing or a cognizable ground for relief.
II. Motion to Dismiss
To survive a motion to dismiss, “a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 663, 129 S. Ct. 1937,
1949 (2009), quoting Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 570, 127 S. Ct. 1955, 1974 (2007). A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw a
reasonable inference that the defendant is liable for
the misconduct alleged. See Twombly, 550 U.S. at 556557. However, the plausibility standard does not
require that a plaintiff set forth detailed factual
allegations. Id. Rather, a plaintiff need only allege
“enough factual matter…to suggest that [a claim is
plausible]” and “raise a right to relief above the
speculative level.” Totes-Isotoner Corp. v. U.S., 594
F.3d 1346, 1354 (Fed. Cir. 2010). Moreover, it is well
established that whether a plaintiff can actually prove
its allegations is not a matter to be determined upon
motion to dismiss, but rather at final hearing or upon
summary judgment, after the parties have had an
opportunity to submit evidence. See Libertyville
Saddle Shop Inc. v. E. Jeffries & Sons, Ltd., 22
USPQ2d 1594, 1597 (TTAB 1992) (“A motion to
dismiss does not involve a determination of the merits
of the case…”).
For purposes of determining such motion, all of the
plaintiff’s well-pleaded allegations must be accepted as
14a

true, and the complaint must be construed in the light
most favorable to the plaintiff. See Advanced
Cardiovascular Sys. Inc. v. SciMed Life Sys. Inc., 988
F.2d 1157, 1161, 26 USPQ2d 1038, 1041 (Fed. Cir.
1993). As plaintiff, the claimant must plead factual
content that allows the Board to draw a reasonable
inference that it has standing and that a valid ground
for cancellation exists. Cf. Twombly, 550 U.S. at 556.
In particular, the claimant must allege well-pleaded
factual matter and more than “[t]hreadbare recitals of
the elements of a cause of action, supported by mere
conclusory statements,” to state a claim plausible on its
face. Iqbal, 129 S. Ct. at 1949 (citing Twombly, 550
U.S. at 555).
A. Standing
Section 14 of the Trademark Act provides that “[a]
petition to cancel a registration of a mark, stating the
grounds relied upon, may, upon payment of the
prescribed fee, be filed…by any person who believes
that he is or will be damaged…by the registration of a
mark on the [P]rincipal [R]egister.” Section 14 thus
establishes a broad doctrine of standing; by its terms,
the statute requires only that a person have a belief
that he would suffer some kind of damage if the mark
is registered. As interpreted in binding precedent, a
petitioner must have a “real interest” in the outcome of
the proceeding, and a “reasonable basis” for its belief
that it would suffer some kind of damage by the
continued registration of the mark. See Empresa
Cubana del Tabaco, 753 F.3d 1270, 111 USPQ2d 1058,
1062 (citing Ritchie v. Simpson, 170 F.3d 1902, 50
15a

USPQ2d 1023, 1025-26 (Fed. Cir. 1999)); Universal Oil
Prods. Co. v. Rexall Drug & Co., 463 F.2d 1122, 1123,
174 USPQ 458, 459 (CCPA 1972). To prove a “real
interest” in the case, Opposer must show that it has a
“direct and personal stake” in the outcome and is more
than a “mere intermeddler.” Ritchie, 50 USPQ2d at
1026-27.
In order to plead standing to challenge a
registration based on a claim that the mark is
functional, a plaintiff must plead that it is a
competitor, that it is engaged in the manufacture or
sale of the same or related goods, or that it otherwise
has a current or prospective right or interest in using
the mark. Poly-America, L.P. v. Illinois Tool Works
Inc., 124 USPQ2d 1508, 1512 (TTAB 2017) (“A
petitioner is required only to be in a position to have a
right to use the mark in question…This test logically
also applies to the question of whether Petitioner has
standing to assert its claim that Respondent’s mark …
comprises matter that, as a whole, is functional.”); AS
Holdings, Inc. v. H & C Milcor, Inc., 107 USPQ2d 1829,
1832 (TTAB 2013) (finding standing to assert claim of
functionality where opposer demonstrated that it was
engaged in the manufacture of goods similar to those
in the subject application).
In support of his standing, Petitioner alleges, inter

alia, the following:
• “[Petitioner] believes that the granting … of a
trademark, including a service mark … that
applies to the activity of an animal (as opposed
16a

to a trademark that is merely a representation
of such activity) is demeaning to the type of
animal that is the subject of such mark.”
Petition to cancel ¶ 1.
• “The demeaning of animals in the manner set
forth in the previous paragraph is offensive to
[Petitioner] and denigrates the value he places
on the respect, dignity, and worth of animals.”
Id. at ¶ 2.
• Numerous persons believe that the granting to,
or possession by, a person of a mark that applies
to the activity of an animal is demeaning to the
type of animal that is the subject of such mark.”
Id. at ¶ 3.
• “The demeaning of animals in the manner set
forth above is offensive to numerous persons
and denigrates the value they place on the
respect, dignity, and worth of animals.” Id. at ¶
4.
Respondent argues that Petitioner has failed to
plead his standing to bring a claim that Respondent’s
involved mark is functional. Respondent contends that
the Supreme Court found in Matal v. Tam, 127 S.Ct.
1744, 1764 (2017) that the prohibition against
registering disparaging marks under Section 2(a) of
the Trademark Act is unconstitutional. 4 TTABVUE 5.
As a result, Respondent contends that Petitioner’s
assertions that he finds the involved mark offensive to
Petitioner and demeaning to goats cannot form the
17a

basis for Petitioner’s purported standing to bring this
proceeding. Id.
In response, Petitioner acknowledges that
disparagement is no longer a cognizable claim under
the Trademark Act. 6 TTABVUE 7. Petitioner argues,
however, that his allegations that the mark is offensive
to him are sufficient to support a pleading of standing.
Id. Accordingly, Petitioner argues that although he
“may not rely upon the offensiveness of [Respondent’s]
trademark in order to prevail on the merits … the
foreclosure upon such reliance has nothing to do
with standing….” Id. at 8 (emphasis in original).
Petitioner relies upon Ritchie v. Simpson, 170 F.3d
1092, 1098 (Fed. Cir. 1999) for the proposition that a
plaintiff may have standing where the plaintiff pleads
that a mark “would disparage members of a certain
group [and] could allege that he is a member of that
group.” Id. at 10.
In this case, as acknowledged by Petitioner, the
only ground for cancellation is the claim of
functionality. Thus, Petitioner must adequately plead
his standing to assert a claim of functionality.
Ritchie found that the plaintiff adequately pleaded his
standing to assert that the subject marks were
scandalous under Section 2(a) of the Trademark Act,
15 U.S.C. § 1052(a), by alleging that he found the
subject mark offensive to his personal values. See
Ritchie, 170 F.3d at 1094 (“[T]he controlling precedents
of this court, as well as the precedents of the Board,
are fully consistent with recognizing that someone in
Mr. Ritchie’s position has standing to oppose a
18a

registration on the grounds raised here.”)
(emphasis added). Ritchie does not establish that an
individual’s personal offense to a mark is sufficient to
plead standing to assert a claim of functionality. Thus,
Petitioner may not rely upon allegations that the
involved mark is personally offensive to him to plead
his standing to assert a claim that the involved mark
is functional.3
Here, Petitioner has not pleaded that he has a
present or prospective right or interest in Respondent’s
involved mark or any other facts sufficient to allege his
standing to assert a claim that Respondent’s involved
mark is functional. See Poly-America, L.P., 124
USPQ2d at 1512.
Moreover, Petitioner’s pleading of standing is
vague and does not relate specifically to the involved

3

If a plaintiff adequately pleads its standing to assert one claim,
then the plaintiff may also plead any other legally sufficient
claim. Corporacion Habanos SA v. Rodriguez, 99 USPQ2d 1873
(TTAB 2011) (finding pleading of standing different for different
claims and finding that once a plaintiff has pleaded standing as
to at least one properly pleaded ground, the plaintiff may also
plead any other legally sufficient claims); Coach Servs., Inc. v.
Triumph Learning LLC, 668 F.3d 1356, 101 USPQ2d 1713, 1728
(Fed. Cir. 2012) (“[O]nce an opposer meets the requirements for
standing, it can rely on any of the statutory grounds for
opposition set forth in 15 U.S.C. § 1052” and finding that because
the plaintiff had established a real interest and reasonable basis
for belief of damage “in the form of likelihood of confusion or
dilution, it also has standing to assert a claim on descriptiveness
grounds.”). Inasmuch as the only claim asserted is functionality,
however, Petitioner must plead standing to assert that claim.

19a

service mark. Petitioner pleads that a registration
“that applies to the activity of an animal is demeaning
to the type of animal that is the subject of such mark.”
Petition to cancel ¶¶ 1-3. The pleading therefore
appears to allege, in general, that a trademark
registration for any mark involving the use of animals
for use in connection with any services is “demeaning.”
The petition to cancel does not allege that Petitioner
has a reasonable belief of harm from Respondent’s
involved registration for restaurant services.
In view thereof, Respondent’s motion to dismiss
Petitioner’s claim in its entirety for failure to
adequately allege his standing is granted.
Notwithstanding the foregoing, it is the Board’s
well-established practice to freely grant leave to amend
pleadings found to be insufficient upon challenge
under Fed. R. Civ. P. 12(b)(6). See Miller Brewing Co.
v. Anheuser-Busch Inc., 27 USPQ2d 1711, 1714 (TTAB
1993); IdeasOne Inc. v. Nationwide Better Health Inc.,
89 USPQ2d 1952, 1955 (TTAB 2009). In view thereof,
Petitioner is allowed time in which to amend his
pleading, if justified and appropriate, as further set
forth below.
B. Functionality
In support of his claim of that the involved mark is
functional, Petitioner pleads, inter alia, the following:
• “The primary use of the Marks[sic] is as a form
of entertainment that increases, to customers,
20a

the appeal of [Respondent’s] place of business,
which is Al Johnson’s Swedish Restaurant &
Butik (the ‘Establishment’).”
Petition to cancel ¶ 5.
• “To whatever extent the Marks[sic] serve as
identification with respect to the Establishment,
such service is not the primary effect of the
Marks[sic], and such service pales in
comparison to the provision, by the Marks[sic],
of entertainment that increases, to customers,
the appeal of the Establishment.” Id. at ¶ 6.
• “The use of the Marks[sic] as a form of
entertainment that increases, to customers, the
appeal of the Establishment is unique.” Id. at ¶
7.
• “The use of the Marks[sic] as a form of
entertainment that increases, to customers, the
appeal of the Establishment is functional.” Id. at
¶ 8.
• “The use of the Marks[sic] as a form of
entertainment that increases, to customers, the
appeal of the Establishment is superior to other
methods.” Id. at ¶ 9.
• “The placement of goats on a grass roof negates
or ameliorates, due to the goats’ grazing, the
need to cut the grass, and is thus economically
advantageous and, therefore, functional.” Id. at
¶ 10.
21a

A mark is unregistrable under Section 2(e)(5) of
the Trademark Act where it “comprises any matter
that, as a whole, is functional.” There are two forms of
functionality: utilitarian functionality and aesthetic
functionality. See In re Morton-Norwich Prods., Inc.,
671 F.2d 1332, 213 USPQ 9, 13 n.1 (CCPA 1982); In re
Florists’ Transworld Delivery Inc., 106 USPQ2d 1784,
1786-87 (TTAB 2013). A product feature is functional
‘if it is essential to the use or purpose of the article or
if it affects the cost or quality of the article.’” Mag
Instrument Inc. v. Brinkmann Corp., 96 USPQ2d 1701,
1718 (TTAB 2010) (quoting Inwood Labs., Inc. v. Ives
Labs., Inc., 456 U.S. 844, 214 USPQ 1, 4 n.10 (1982)).
A functional feature is one the “exclusive use of [which]
would put competitors at a significant non-reputationrelated disadvantage.” Qualitex Co. v. Jacobson Prods.
Co., 514 U.S. 159, 34 USPQ2d 1161, 1164 (1995). “[I]t
is well settled that functionality must be assessed in
connection with the goods or services at issue….” Doyle
v. Al Johnson’s Swedish Restaurant & Butik, Inc., 101
USPQ2d 1780, 1783 (TTAB 2012) (citing Two Pesos,
Inc. v. Taco Cabana, Inc., 505 U.S. 763, 769-70 (1992)
and Duramax Marine LLC v. R.W. Fernstrum & Co.,
80 USPQ2d 1780, 1791-94 (TTAB 2006)).
Petitioner has pleaded that placing goats on a
grass roof is “economically advantageous” because it
reduces the need to cut grass on a grass roof; however,
Petitioner does not allege that goats on grass roofs are
essential to the use or purpose or affect the cost or
quality of restaurant services. See Doyle, 101
USPQ2d at 1783 (“[W]hile petitioner alleges that
respondent’s goats and sod roof affect respondent’s
22a

costs, by reducing respondent’s energy and mowing
expenses, this allegation is not specific, and is in fact
completely unrelated, to restaurant or gift shop
services.”) (emphasis in original).
Petitioner also pleads that use of the involved
mark is primarily a form of entertainment and that it
“increases the appeal” of Respondent’s services and
that the use of goats on a grass roof is a superior form
of entertainment. Petitioner has again failed to plead
a nexus between the alleged aesthetic superiority of
the design and Respondent’s restaurant services.
Moreover, “functionality hinges on whether
registration of a particular feature hinders competition
and not on whether the feature contributes to the
product’s commercial success.” M-5 Steel Mf’g, Inc. v.
O’Hagin’s Inc., 61 USPQ2d 1086, 1097 (TTAB 2001).
Petitioner has failed to allege that the alleged superior
design hinders competition or “provide[s] a competitive
advantage.” See id. In other words, Petitioner has
failed to allege that the involved registration is
functional, as opposed to merely aesthetically pleasing.
See Qualitex Co. v. Johnson Products Co., Inc., 514
U.S. 159, 165 (1995) (“The functionality doctrine
prevents trademark law, which seeks to promote
competition by protecting a firm’s reputation, from
instead inhibiting legitimate competition by allowing
a producer to control a useful product feature.”).
In view thereof, Respondent’s motion to dismiss
Petitioner’s claim of functionality is granted.
Petitioner is allowed time in which to replead,
however, if justified and appropriate, as further set
23a

forth below.
Petitioner is allowed until twenty days from the
date of this order in which to file and serve an
amended petition to cancel that properly pleads his
standing and states a valid claim for relief, if
Petitioner has a sound basis for doing so pursuant to
Fed. R. Civ. P. 11, failing which the petition to cancel
will be denied with prejudice.
In turn, Respondent is allowed until twenty days
from the date of service of the amended petition to
cancel in which to file and serve an answer or
otherwise respond to the amended pleading.
III. Schedule
Proceedings herein are resumed. Remaining dates
are reset as follows: [regarding discovery and trial]

24a

APPENDIX C
THIS ORDER IS NOT A
PRECEDENT OF THE TTAB
UNITED STATES PATENT AND TRADEMARK
OFFICE Trademark Trial and Appeal Board
P.O. Box 1451
Alexandria, VA 22313-1451
General Contact Number: 571-272-8500
General Email: TTABInfo@uspto.gov
mbm/tdc
May 2, 2019
Cancellation No. 92069777

Todd C. Bank
v.
Al Johnson’s Swedish
Restaurant & Butiks, Inc.1
By the Trademark Trial and Appeal Board:
On March 27, 2019, Petitioner was allowed twenty
1

Registrant’s revocation and power of attorney filed April 18,
2019 is noted. The Board records have been updated to reflect
this change.

25a

days in which to file and serve an amended petition to
cancel that properly pleads his standing and states a
valid claim for relief, if Petitioner has a sound basis for
doing so pursuant to Fed. R. Civ. P. 11, failing which
the petition to cancel will be denied with prejudice.
To date, no response has been received.
In view thereof, the petition to cancel is denied
with prejudice.

26a

APPENDIX D
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1880
TODD C. BANK,

Appellant,
v.
AL JOHNSON’S SWEDISH
RESTAURANT & BUTIK, INC.,

Appellee.
Appeal from the United States Patent
and Trademark Office, Trademark
Trial and Appeal Board in No. 92069777.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN,
LOURIE, CLEVENGER* , DYK, MOORE,
O’MALLEY, REYNA, WALLACH, TARANTO,
*

Circuit Judge Clevenger participated only in the decision on
the petition for panel rehearing.

27a

CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Todd C. Bank filed a combined petition for panel
rehearing and rehearing en banc. The petition was
referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on February 5,
2020.
FOR THE COURT
January 29, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

28a

